         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report



       Changes in Conditions at
       Wildcat Landfill Superfund Site
       in Delaware Call for
       Increased EPA Oversight
       Report No. 10-P-0055

       January 26, 2010
Report Contributors:                             Carolyn Copper
                                                 Patrick Milligan
                                                 Denise Rice
                                                 Martha Chang
                                                 Kathryn Hess




Abbreviations

DNREC          Department of Natural Resources and Environmental Control (Delaware)
EPA            U.S. Environmental Protection Agency
mg/L           milligrams per liter
MW             Monitoring Well
NPL            National Priorities List
OIG            Office of Inspector General
PCBs           Polychlorinated biphenyls
PRP            Potentially Responsible Party
ROD            Record of Decision
RPM            Remedial Project Manager
Site           Wildcat Landfill Superfund Site
SVOCs          Semi-volatile Organic Compounds
SW             Surface Water
TPH            Total Petroleum Hydrocarbons
ug/L           micrograms per liter
VOCs           Volatile Organic Compounds




Cover photo:     The remediated Wildcat Superfund Landfill Site near Dover, Delaware.
                 (EPA OIG photo)
                       U.S. Environmental Protection Agency                                                   10-P-0055
                                                                                                        January 26, 2010
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment

Why We Did This Review             Changes in Conditions at Wildcat Landfill Superfund
The Office of Inspector
                                   Site in Delaware Call for Increased EPA Oversight
General (OIG) is testing long-
term monitoring results at          What We Found
Superfund sites the U.S.
Environmental Protection           Our inspection of the Wildcat Landfill Superfund Site, combined with the current
Agency (EPA) has deleted           owner’s plans for the Site, demonstrate that more sampling and EPA oversight are
from the National Priorities       needed to ensure that the Site remains safe for humans and the environment based
List. The Wildcat Landfill         on planned future use. Our independent sampling results were generally
Superfund Site, located near       consistent with Region 3’s historical results. However, surface waters at the Site
Dover, Delaware (within EPA        have a sheen that resembles petroleum. The clean-up remedy does not address
Region 3), is one of eight sites   petroleum contamination and Region 3 had not tested for petroleum during its
being reviewed. In April           sampling events, but agreed to test for it in September 2009. In December 2009,
2008, the OIG obtained             the Region reported that it had detected petroleum at levels below public health
groundwater and surface water      standards and it will continue to monitor petroleum levels at the Site.
samples from the Site and
conducted a site inspection.
                                   OIG’s results also disclosed several instances where aluminum, iron, and selenium
                                   exceeded ecological protection standards. Further, Region 3’s historical samples
Background
                                   were not always analyzed according to the required standard, which can prevent
                                   detection of contamination that exceeds standards. Region 3 corrected this error in
Wildcat Landfill was added to
                                   a September 2009 sampling event. It also reported from its September 2009
the Superfund National
Priorities List in 1983 and was    sampling event that levels of aluminum and selenium were within ecological
deleted from the list in 2003.     protection standards, but iron was not.
The Site was contaminated
from disposal of paint sludge      The Site has not been cleaned up to standards that allow for unrestricted public
and municipal, industrial, and     access. However, the Site’s owner plans to create a greenway and to construct a
latex waste. In 2005, the Site     bike path on the landfill, which would open part of the Site to unrestricted access.
was sold to Kent County,           A local small business owner who purchased an acre of the Site has also inquired
Delaware (Site owner), which       about building a storage facility on that acre. Region 3’s oversight of the Site
plans to reuse the Site for
                                   reuse plans has been informal and undocumented. The Region is currently aware
public recreation purposes.
                                   of the Site owner’s plans and agreed to formally document discussions with the
                                   Site owner and review reuse plans as they become available.
For further information, contact
our Office of Congressional,        What We Recommend
Public Affairs and Management
at (202) 566-2391.
                                   We recommend that Region 3 modify its sampling and analysis approach to
To view the full report,           ensure proper testing of relevant contaminants, address contamination that exceeds
click on the following link:       ecological or human safety standards, and improve oversight of Site reuse plans.
www.epa.gov/oig/reports/2010/      Region 3 agreed with OIG recommendations and has initiated or completed some
20100126-10-P-0055.pdf
                                   actions.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                           OFFICE OF
                                                                                      INSPECTOR GENERAL


                                          January 26, 2010

MEMORANDUM

SUBJECT:               Changes in Conditions at Wildcat Landfill Superfund Site
                       in Delaware Call for Increased EPA Oversight
                       Report No. 10-P-0055


FROM:                  Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:                    Shawn M. Garvin
                       Region 3 Administrator


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains the findings from our
sampling at the Wildcat Landfill Superfund Site and corrective actions the OIG recommends.
EPA Region 3 concurred with and provided comments on the recommendations of the draft
report. This report represents the opinion of the OIG and does not necessarily represent the final
EPA position. Final determinations on matters in this report will be made by EPA managers in
accordance with established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time, then adding in the contractor costs –
is $285,382.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at (202) 566-0829 or
copper.carolyn@epa.gov; or Patrick Milligan, Project Manager, at (215) 814-2326 or
milligan.patrick@epa.gov.
Changes in Conditions at Wildcat Landfill Superfund                                                                          10-P-0055
Site in Delaware Call for Increased EPA Oversight



                                   Table of Contents

Chapters
   1     Introduction ........................................................................................................      1

                 Purpose .......................................................................................................    1
                 Background .................................................................................................       1
                 Noteworthy Achievements ..........................................................................                 2
                 Scope and Methodology..............................................................................                2

   2     More Sampling and Monitoring of Land Use Changes Needed ....................                                               5

                 Site Contains Newly Identified Petroleum Products ....................................                             5
                 Metal Concentrations Exceed State Standards...........................................                             6
                 Modifications to Site Remedy Are Necessary Before
                      Land Can Be Used for Recreation .......................................................                       8
                 Conclusions.................................................................................................       9
                 Recommendations ......................................................................................            10
                 EPA Region 3 Response and OIG Evaluation ............................................                             10
                 Kent County, Delaware, Response and OIG Evaluation .............................                                  11

   Status of Recommendations and Potential Monetary Benefits..............................                                         12



Appendices
   A     OIG Sample Results Compared to Site Historical Data ..................................                                    13

   B     VOC Results from OIG Sampling......................................................................                       14

   C     EPA Region 3 Response to Draft Report and OIG Evaluation .......................                                          16

   D     Kent County Response to Draft Report and OIG Evaluation .........................                                         21

   E     Distribution .........................................................................................................    30
                                                                                  10-P-0055




                                Chapter 1
                                Introduction

Purpose
          The Office of Inspector General (OIG) of the U.S. Environmental Protection
          Agency (EPA) is evaluating long-term monitoring at Superfund sites deleted from
          the National Priorities List (NPL). This is being done to ensure EPA has valid
          and reliable data on the conditions of these sites. The Wildcat Landfill Superfund
          Site near Dover, Delaware, is one of eight sites being reviewed. We collected
          groundwater and surface water samples and conducted a site inspection. We
          compared our results to past results reported by EPA Region 3.

Background

          The Wildcat Landfill Superfund Site is located 2.5 miles southeast of Dover in
          Kent County, Delaware. The 44-acre Site is bordered to the north and east by the
          St. Jones River and its associated wetlands and to the south and west by
          residential and commercial development. The Site was operated as a permitted
          sanitary landfill between 1962 and 1973, accepting both municipal and industrial
          wastes. According to Region 3, industrial wastes suspected to have been disposed
          include latex waste and paint sludge. Region 3 indicated that the landfill owners
          routinely violated operating and other permits issued by regulating agencies
          during the landfill’s 11 years of operation.

          The Site was placed on the Superfund NPL in 1983. In 1988, EPA issued two
          Records of Decision (RODs) that described the clean-up goals and actions to be
          conducted – one ROD for each operational unit. Remedial actions included
          establishing haul roads throughout the Site, covering and re-vegetating
          barren/exposed areas on the landfill, draining and stabilizing an existing pond,
          stabilizing and capping contaminated soils onsite, removing drums, and
          establishing a wetland replacement pond known as the Wetland Mitigation Area.

          The Potentially Responsible Parties (PRPs) completed construction of the two
          operable units in 1992. In 1992, groundwater monitoring was initiated to evaluate
          the effectiveness of the Site clean-up. EPA deleted the Site from the NPL in
          2003, which signified clean-up goals were achieved through remedial action. In
          2005, nearly all of the Site was sold to Kent County, Delaware; a small business
          owns about an acre of the 44-acre site.




                                           1
                                                                                    10-P-0055


Noteworthy Achievements

         The selected remedial action for this Site included:

            •   removing and disposing of both hazardous and non-hazardous waste;
            •   grading the Site, installing a soil cover, and re-vegetating on-site direct
                contact risk areas;
            •   replacing two wells adjacent to the site;
            •   implementing institutional controls, including well and land use
                restrictions; and
            •   monitoring groundwater.

         Documentation indicated the Remedial Project Manager (RPM) visits the site at
         least annually. The RPM inspects the site, looks for changes in land use on and
         around the site, and ensures there are sufficient sample data on which to make a
         protectiveness determination. Since it purchased the landfill in 2005, a Kent
         County representative stated that the County has removed large quantities of
         domestic waste and trash, and placed an earthen cap over a 12-acre area of the
         site.

Scope and Methodology
         We conducted our work from February 2008 to September 2009 in accordance
         with generally accepted government auditing standards. Those standards require
         that we plan and perform the evaluation to obtain sufficient, appropriate evidence
         to provide a reasonable basis for our findings and conclusions based on our
         evaluation objectives. We believe that the evidence obtained provides a
         reasonable basis for our findings and conclusions based on our evaluation
         objectives.

         We interviewed the Region 3 RPM and the Project Manager for the State of
         Delaware Department of Natural Resources and Environmental Control
         (DNREC). We also interviewed the Kent County Director of Parks Division, a
         representative for the Site’s current owner, Kent County. We reviewed relevant
         guidance and Site documents such as the ROD, Five-Year Reviews, operation and
         maintenance reports, and institutional control documents.

         We acquired a qualified contractor to take groundwater and surface water
         samples, and conduct a site inspection at the Site in April 2008. The OIG’s
         contractor collected samples from three groundwater monitoring wells (MW-1B,
         MW-17, and MW-4) and two surface water locations (SW-01 and SW-02). See
         Figure 1-1.




                                           2
                                                     10-P-0055


Figure 1-1: Wildcat Landfill Map




Map Legend
MW – Monitoring wells
SW – Surface water sample locations
----- (Red)      Area for future bike path
----- (Orange)   Light industrial
----- (Pink)     Approximate landfill boundary
----- (Green)    Partially cleared area
Source: EPA OIG contractor.



                                                 3
                                                                          10-P-0055


A limited site inspection was conducted by OIG staff and the contractor. OIG
staff members were present during the contractor’s inspection and sampling to
ensure that proper sampling and site inspection quality assurance protocols were
followed. According to the RODs, the primary contaminants of concern affecting
the soil and ground water at the Site are volatile organic compounds (VOCs),
semi-volatile organic compounds (SVOCs), polychlorinated biphenyls (PCBs),
and metals. Therefore, the samples OIG collected were analyzed by qualified
laboratories for metals, pesticides, PCBs, VOCs, and SVOCs.

To accomplish our data comparisons, we compared our results to historical data
spanning back to 2002. OIG sampling results greater than two standard
deviations above the average EPA historical concentrations were considered
different. Our review did not include a full evaluation of the reasons for these
differences. Where we observed differences, we compared OIG results to the
relevant federal and State standards to determine whether OIG’s data had
implications for human health or environmental protection. The relevant health-
based standard is the Delaware Water Quality Criteria for Protection of Aquatic
Life.

There were seven compounds for which the OIG’s results were higher than
Region 3’s historical results. For three of those compounds (aluminum, iron, and
manganese), our results were biased high and could not be expected to match
historical data. For the four remaining compounds (magnesium, potassium,
calcium, and sodium), there are no applicable State or federal standards to
determine whether these results could have an adverse impact on human health
and the environment. Appendix A shows the results of comparing the OIG
sample results and the Region’s historical data.

We also compared all OIG results to the applicable standard listed in the ROD by
comparing our groundwater sampling results to the Delaware DNREC Freshwater
Chronic Quality Criteria for Protection of Aquatic Life (DNREC standard). We
identified all OIG results that exceeded the DNREC standard.

A draft of this report was sent to the Acting Region 3 Administrator for official
comment. Region 3’s comments on the draft report are in Appendix C.




                                 4
                                                                                  10-P-0055




                                  Chapter 2
              More Sampling and Monitoring of
                Land Use Changes Needed
          Our inspection of the Wildcat Landfill Superfund Site, combined with the land
          use plans of the Site’s owner (Kent County), demonstrate that more sampling and
          increased EPA oversight of land use changes are needed. The surface waters at
          the Site have a sheen that resembles petroleum, but the Region has not tested for
          petroleum in the past and the remedy is not designed to address petroleum
          contamination. Region 3 agreed with OIG concerns about possible petroleum
          contamination and tested for it in September 2009. The results showed petroleum
          was found onsite at levels the Region reported were below the median State
          action levels, and Region 3 will continue to monitor for petroleum contamination.
          Kent County plans to use the Site for public recreation that is inconsistent with
          acceptable uses determined by EPA. Kent County's proposed reuse plans would
          call for increased Region 3 oversight.

Site Contains Newly Identified Petroleum Products
          During our physical inspection of the site we observed a sheen on the surface
          waters throughout the site. The sheen was iridescent and oily in appearance
          (see photo below). While this sheen could be harmless, it could also indicate the
          presence of a petroleum product. Region 3 personnel said they were aware of the
          sheen at the Site but had concluded that it was naturally occurring.




          Iridescent sheen at Wildcat Landfill, April 2008. (EPA OIG photo)

          OIG samples from two monitoring wells contained several VOCs, which although
          found at acceptable levels could also be indicative of the presence of petroleum.
          Specifically, MW-4 contained benzene, chlorobenzene, chloroethane, ethyl
          benzene, toluene, and xylenes. MW-17 contained small amounts of benzene and
          chlorobenzene. These compounds were historically found at the site in


                                             5
                                                                                   10-P-0055


          concentrations equivalent to OIG results and at levels that do not exceed the
          DNREC Freshwater Chronic Criteria. In addition, Region 3 reported in its June
          2007 Five-Year Review that the amounts of these contaminants present in the
          historical samples were not in sufficient quantities to indicate a risk to human
          health and the environment. Appendix B includes all the specific results for the
          OIG sampling of VOCs.

          Waste disposed at the Site could account for the presence of VOCs in samples.
          Site documents indicate that paint sludge, which contains VOCs, may have been
          disposed of at the Site. There are also low levels of pesticides, which contain
          VOCs, historically present in MW-4. This may be the source of the low levels of
          VOCs in this well. However, VOCs are also indicators of petroleum products.
          Region 3 considered the possibility of petroleum contamination during its
          remedial investigation of the Site, but because the VOC levels were so low EPA
          stated it does not have evidence of petroleum products in subsurface soil, ground
          water or surface water at levels that indicated petroleum products were a
          significant concern at the Site. However, analysis of VOCs only is not sufficient
          for concluding that petroleum products were not a significant concern at the Site.
          Testing for total petroleum hydrocarbons is also necessary for determining the
          presence or absence of petroleum.

          Because the surface waters at the Site have a sheen and the contaminants
          consistently found in MW-4 are indicative of petroleum, the presence of gasoline
          or some other petroleum product at the Site is a possibility. Until September
          2009, the Region had not performed a test for petroleum products and, therefore,
          did not know if petroleum is onsite. Given the landfill’s history of violations,
          Region 3 may not possess complete records of all waste materials disposed in the
          landfill and may be not be aware of all landfill contaminants. At the request of
          the OIG, Region 3 sampled the Site for petroleum in September 2009. In
          December 2009, the Region reported that there is petroleum on the Site at levels
          below median State action levels. The Region will continue to sample for
          petroleum to reliably establish the levels of petroleum present onsite and evaluate
          whether petroleum hydrocarbons are present at levels that would adversely impact
          human health or the environment.

Metal Concentrations Exceed State Standards

          We compared OIG sampling results to the DNREC Freshwater Chronic Quality
          Criteria for Protection of Aquatic Life to determine whether there were any OIG
          results that exceed the standard. Of the 197 compounds analyzed, in some cases
          our results for aluminum, iron, and selenium exceeded the DNREC standard (see
          Table 2-1). Region 3’s historical data for these compounds also exceeded the
          DNREC Freshwater Chronic Quality Criteria for Protection of Aquatic Life.




                                           6
                                                                                                          10-P-0055


Table 2-1: OIG and Region 3 Historical Data that Exceed the Standard

                                                              Region 3 Historical Data
                Delaware                                                                                     OIG
               Freshwater                                                                                   Sample
                 Chronic                                                                                    Results
    Total       Standard                                                                                     April
   Metals       (DNREC)       Sampling       May         May         May        August        August         2008
   (mg/L)        (mg/L)       Location       2002        2003        2004        2006          2007         (mg/L)
                               MW-17       0.0112 B      < 0.2       0.29       0.59 B          <0.2         0.11
 Aluminum         0.087        SW-01           --           --         --       0.877 B         3.97         0.48
                               SW-02            --            --       --        10.2           0.74          2.2
                               MW-1B        0.051 B      <0.2        <0.2        <0.1           <0.1         3.5*
                               MW-17          45.5        37          49         65.6          57.8          61.6
    Iron            1
                               SW-01            --         --          --        25.7          129           69.1
                               SW-02            --         --          --        27.8          13.7          96.0
                               MW-4        0.0038 B     <0.03        <0.03      <0.035        <0.035        0.0129
 Selenium         0.005        MW-17        < 0.002     < 0.03      < 0.03      < 0.035       < 0.035       0.0113
                               SW-02            --         --          --       <0.035        <0.035        0.0182

B – This contaminant was found in the blank processed with this sample. The concentration may be biased high.

mg/L – milligrams per liter

* Note: For sample MW-1B, the OIG sample exhibited matrix effect (properties which interfere with accurate
analysis). Under that condition, data are not reliable enough for a valid comparison to the federal and State
standards. However, the data are useful for comparison with the other wells and in determining that the type of
metals sample being taken at the Site is inappropriate. The sampling point SW-02 is in a different location for each
data point but was combined to do a whole site perspective.

Source: OIG analysis based on OIG and Region 3 sampling data.

                  In addition to the exceedances identified above, Region 3 did not take the
                  appropriate type of sample for the metals analysis. The DNREC standard called
                  for dissolved (filtered) metals samples. However, the Region has historically
                  taken total (unfiltered) metals samples. During its September 2009 sampling
                  event, the Region sampled for dissolved metals (filtered), as required by the
                  DNREC sampling criteria. The levels of aluminum and selenium were within
                  ecological protection standards, but iron levels continued to exceed ecological
                  protection standards. In the future, if the contaminants are consistently above the
                  DNREC standard, the Region will determine the extent of the exceedance
                  spatially and whether it is a continuing release. Additional actions by the Region
                  would include targeted investigations to identify site-specific toxicity values for
                  those compounds to determine whether there is an impact to the wildlife and
                  aquatic life on the Site.

                  We also found that Region 3 was not analyzing other samples at the level of the
                  standard. As a result, there is the possibility that the Site has contamination above
                  the standard, but it has gone undetected and unaddressed by the Region. For
                  example, the standard for aluminum is 0.087 mg/L, but in August 2007 the lab
                  had only determined that there was less than 0.2 mg/L of aluminum onsite. This


                                                          7
                                                                                    10-P-0055


          means there could have been contamination between 0.087 mg/L and 0.2 mg/L
          that would not be identified by the lab. For its September 2009 sampling,
          Region 3 corrected this by having the lab analyze down to the level of the
          standard. The Region has indicated that it is now informally reviewing each data
          set as it is received for exceedances to the standard, followed by a formal review
          of all data during the Five-Year Review.

Modifications to Site Remedy Are Necessary Before Land Can Be
Used for Recreation
          Region 3 had not stayed current on Kent County’s Site reuse plans. Kent
          County’s future plans for the Site include converting the property into a
          recreational greenway by constructing a bike and pedestrian path through it and
          allowing unrestricted access to that portion of the Site. However, Region 3’s Site
          remedy only supports reuse of the land as a conservation area and greenway with
          access restricted to authorized personnel. Kent County has already secured
          funding for aspects of the project, entered into assistance agreements with the
          State of Delaware, and has placed a conservation easement on the Site. Region 3
          stated that it was aware of the County’s plans through its continued oversight of
          Wildcat, but the Region’s oversight has been informal and undocumented. Given
          the advanced stage of the County’s plans, the Region needs to increase its
          oversight through more frequent contact with the County and to provide direction
          and guidance throughout the County’s project to ensure the Site remains safe.

          According to EPA documents, the Site contains natural barriers to human access
          in the form of the St. Jones River, heavily treed borders, and a locked gate at the
          entrance of the site. According to Region 3, these barriers, along with the
          stabilization and capping of contaminated soils onsite, removal of drums, and the
          implementation of institutional controls in the form of deed restrictions, make the
          Site protective for a conservation area and restrict access of the Site to trained
          authorized personnel. Since Kent County purchased the Site in January 2005, it
          has used it as a conservation area. The purpose of the Site’s conservation
          easement is to assure that the property will be retained forever in its natural
          scenic, open, historic, and forested condition and to prevent any use of the
          property that will significantly impair or interfere with its conservation value.

          Between October 2005 and March 2008, Kent County entered into transportation
          enhancement agreements with the State of Delaware for design and review of the
          project (a recreational greenway with a bike and pedestrian path), conducting a
          feasibility study, and receiving technical assistance. These agreements, and the
          fact that the County has already secured funding for the feasibility phase of the
          project, indicate that the County is committed to making the recreational
          greenway a reality. The County and/or other partner organizations may also
          restore the manor house on the property for use as a museum.




                                           8
                                                                                   10-P-0055


         When Kent County purchased the property, there was debris and exposed landfill
         waste at the Site. Region 3 stated in the ROD that future direct contact with
         wastes is a concern should residential or commercial development occur upon the
         landfill. Since February 2007, Kent County has cleaned up the debris on the open
         areas of the Site where the bike and pedestrian path would be. According to
         Region 3’s most recent Five-Year review, this level of clean-up is sufficient for
         the current use of the land and may be sufficient for the future recreational use if
         access to the Site is limited to the path only. However, exposed landfill debris
         remains on parts of the Site, which Kent County states it does not have the
         resources to remove. The debris could pose a hazard to Site users if access to the
         entire Site is unrestricted. In response to OIG’s concerns, the RPM requested an
         update from Kent County on how it was progressing with cleaning up the debris
         and addressing other issues about Site reuse plans. The update provided by Kent
         County showed that the Region was at least 6 months behind what the County had
         been doing at the Site and the County’s latest plans for controlling site access.

         EPA needs to conduct routine and documented oversight of the County's plans
         and activities to determine necessary modifications to the plans, prevent unsafe
         exposures, and ensure safe uses of the Site if unrestricted access is permitted or
         likely to occur. Kent County stated that documented correspondence between the
         County and Region 3 will be extensive during the development of the design plan
         that would propose changes in land use at Wildcat. The County has also stated
         that once developed, a draft of the engineered access management proposal will
         be sent to Region 3 for design guidance and approval.

         In addition to Kent County’s Site reuse plans, a local small business owner who
         owns an acre of the Site inquired about building a storage facility on that acre. In
         conducting oversight of this activity, Region 3 has communicated to this business
         owner, via e-mail, that it will need to review the owner’s construction plans to
         ensure the integrity of the remedy is maintained. The deed restrictions imposed
         by Region 3 prevent the business owner from proceeding with plans without
         further consulting EPA and receiving permission from the State of Delaware. The
         deed restriction involves ensuring the landfill cap is not damaged. Routine and
         documented regional oversight will be needed to ensure the cap is not impacted.

Conclusions
         Site conditions have changed at the Wildcat Landfill Superfund Site that
         necessitate new testing and increased EPA oversight. New contaminants have
         been detected that the Region needs to monitor to determine potential risks.
         There are plans to have portions of the Site open to unrestricted public access.
         Under the proposed site reuse scenario, it is unknown whether known or newly
         discovered contaminants pose unacceptable risks to human health and the
         environment. A review of Site clean-up actions and existing engineered and
         institutional controls needs to be done to determine whether they are adequate for
         the planned reuses of the Site. As a result of OIG oversight, the sampling


                                          9
                                                                                   10-P-0055


         protocols for the site have been changed to ensure that the data collected are
         adequate for monitoring the protectiveness of the Site.

Recommendations
         We recommend that the Regional Administrator, Region 3:

            2-1     Establish a sampling plan for the monitoring wells and surface waters
                    that includes testing for total petroleum hydrocarbons.

            2-2     If petroleum is found on the Site above acceptable and appropriate
                    levels, take action to address the contamination and amend existing
                    site documents or generate new site documents, to ensure the Site is
                    protective of human health and the environment for current and
                    planned land uses.

            2-3     Formally document oversight of the Site owners’ plans and
                    agreements for use of the Site. This includes an evaluation and
                    determination of the impact of construction or vegetation change on
                    the remedy, and what modifications to the remedy and/or ROD will be
                    needed to support unrestricted access to portions of the Site.

            2-4     Change the sampling protocol to include dissolved (filtered) metals
                    analysis. Continue to require that the reporting limits for all analyses
                    are at or below the DNREC standard to ensure that all contamination
                    above the standard is detected. Assess the effect of the sampling
                    results on the protectiveness determination of the Site.

EPA Region 3 Response and OIG Evaluation
         Region 3 agreed with all four OIG recommendations. We made changes to the
         report based on Region 3’s comments where appropriate. The Region has
         initiated corrective actions on Recommendations 2-1, 2-2, and 2-4. Specifically,
         for Recommendations 2-1 and 2-2, beginning with its September 2009 annual
         sampling event, Region 3 modified its sampling plan for the monitoring wells and
         surface waters to include testing for petroleum. In response to the Region’s draft
         report comments, we modified Recommendation 2-2 to require action when and if
         petroleum levels exceed acceptable and appropriate levels. For Recommendation
         2-4, beginning with its September 2009 annual sampling event, the Region
         modified its sampling protocol to require dissolved metals sampling and that the
         reporting limits for all analyses are at or below the DNREC standard. Region 3
         agreed with Recommendation 2-3 and will document in the Site file discussions
         held with the Site owner regarding future plans and agreements for use of the Site.




                                          10
                                                                                10-P-0055


         We have designated all report recommendations open with agreed-to actions
         pending. The Region’s draft report response contained generally responsive and
         acceptable corrective actions. However, additional information, such as estimated
         milestone completion dates, are required in the Region’s final response to the
         report (90-day response). Appendix C provides the full text of the Region’s
         comments and the OIG’s evaluation.

Kent County, Delaware, Response and OIG Evaluation
         A portion of the draft report was sent to Kent County’s representative for the
         County’s review and comment. Kent County cited no inaccuracies in the draft
         report but requested that we add additional information to the report. Generally,
         we did not agree to add additional information because these changes had the
         effect of modifying the meaning or transparency of OIG statements in ways we
         were unable to support. OIG added information to the report to acknowledge the
         efforts Kent County has made to clean and improve the Site since it purchased the
         Wildcat Landfill in 2005. See Appendix D for the full text of the County’s
         response and the OIG’s evaluation.




                                         11
                                                                                                                                       10-P-0055



                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1       Action Official          Date      Amount      Amount

    2-1       10    Establish a sampling plan for the monitoring wells        O        Region 3 Administrator
                    and surface waters that includes testing for total
                    petroleum hydrocarbons.

    2-2       10    If petroleum is found on the Site above acceptable        O        Region 3 Administrator
                    and appropriate levels, take action to address the
                    contamination and amend existing site documents
                    or generate new site documents, to ensure the Site
                    is protective of human health and the environment
                    for current and planned land uses

    2-3       10    Formally document oversight of the Site owners’           O        Region 3 Administrator
                    plans and agreements for use of the Site. This
                    includes an evaluation and determination of the
                    impact of construction or vegetation change on the
                    remedy, and what modifications to the remedy
                    and/or ROD will be needed to support unrestricted
                    access to portions of the Site.

    2-4       10    Change the sampling protocol to include dissolved         O        Region 3 Administrator
                    (filtered) metals analysis. Continue to require that
                    the reporting limits for all analyses are at or below
                    the DNREC standard to ensure that all
                    contamination above the standard is detected.
                    Assess the effect of the sampling results on the
                    protectiveness determination of the Site.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                  12
                                                                                                           10-P-0055


                                                                                                      Appendix A

                       OIG Sample Results Compared to
                             Site Historical Data
OIG compared its sample results to Region 3’s historical sample results for the Site. OIG sampling
results that were greater than two standard deviations above the average EPA historical
concentrations were considered different. The table below shows the differences found.

                                                                                                        OIG Sample
                                                   Historical Sampling Results                            Results
 Sampling                       May 2002      May 2003    May 2004      August           August          April 2008
 Location       Total Metals     mg/L          mg/L          mg/L      2006 mg/L        2007 mg/L          mg/L
 MW-1B          Aluminum         0.0428 B       <0.2           <0.2       0.446 B          <0.2            3.6*
 MW-1B          Iron              0.051 B       <0.2           <0.2         <0.1           <0.1            3.5*
 MW-1B          Manganese        0.0358 B       <0.05          <0.05      0.0268          0.0307           0.15*
 MW-4           Calcium              47           52             56         51.2           64.7            70
 MW-4           Magnesium           27.3          28             32         27.8           38.8            44
 MW-4           Potassium           62.1         58             67          58.3           66.7            100
 MW-4           Sodium              149          140            160         127           231 K             253

B – This contaminant was found in the blank processed with this sample. The concentration may be biased high.
K – Reported value may be biased high. Actual value is expected to be lower.

* For sample MW-1B the OIG sample exhibited matrix effect (properties which interfere with accurate analysis). Under
that condition, the result cannot be expected to match the historical data.

Source: OIG analysis based on OIG and Region 3 sampling data.




                                                          13
                                                                                            10-P-0055


                                                                                          Appendix B

                       VOC Results from OIG Sampling
The values in bold in the table below are compounds detected from our sampling. The presence of
several of these highlighted contaminants, along with the sheen observed at the Site, indicate that
petroleum may be present on the Site.

                                                       MW-1B      MW-17          MW-4
        Compound                                        (µg/L)     (µg/L)        (µg/L)
        Acetone                                       < 50.0      < 50.0       < 50.0
        Benzene                                       < 1.00        1.23          22.5
        Bromochloromethane                            < 1.00      < 1.00       < 1.00
        Bromodichloromethane                          < 1.00      < 1.00       < 1.00
        Bromoform                                     < 1.00      < 1.00       < 1.00
        Bromomethane                                  < 1.00      < 1.00       < 1.00
        2-Butanone                                    < 50.0      < 50.0       < 50.0
        Carbon disulfide                              < 1.00      < 1.00       < 1.00
        Carbon tetrachloride                          < 1.00      < 1.00       < 1.00
        Chlorobenzene                                 < 1.00        6.80         17.7
        Chlorodibromomethane                          < 1.00      < 1.00       < 1.00
        Chloroethane                                  < 1.00      < 1.00       800
        Chloroform                                    < 1.00      < 1.00       < 1.00
        Chloromethane                                 < 1.00      < 1.00       < 1.00
        Cyclohexane                                   < 5.00      < 5.00       < 5.00
        1,2-Dibromo-3-chloropropane                   < 5.00      < 5.00       < 5.00
        1,2-Dibromoethane (EDB)                       < 1.00      < 1.00       < 1.00
        Methylcyclohexane                             < 5.00      < 5.00       < 5.00
        1,2-Dichlorobenzene                           < 1.00      < 1.00         1.42
        1,3-Dichlorobenzene                           < 1.00      < 1.00       < 1.00
        1,4-Dichlorobenzene                           < 1.00        2.21         3.81
        Dichlorodifluoromethane                       < 1.00      < 1.00       < 1.00
        1,2-Dichloroethane                            < 1.00      < 1.00       < 1.00
        1,1-Dichloroethane                            < 1.00      < 1.00       < 1.00
        1,1-Dichloroethene                            < 1.00      < 1.00       < 1.00
        trans-1,2-Dichloroethene                      < 1.00      < 1.00       < 1.00
        1,1,2 -Trifluorotrichloroethane               < 1.00      < 1.00       < 1.00
        cis-1,2-Dichloroethene                        < 1.00        2.53       < 1.00
        1,2-Dichloropropane                           < 1.00      < 1.00       < 1.00
        trans-1,3-Dichloropropene                     < 1.00      < 1.00       < 1.00
        cis-1,3-Dichloropropene                       < 1.00      < 1.00       < 1.00
        Ethylbenzene                                  < 1.00      < 1.00         4.23
        2-Hexanone                                    < 50.0      < 50.0       < 50.0
        Isopropylbenzene                              < 1.00      < 1.00         13.3
        Methyl Acetate                                < 10.0      < 10.0       < 10.0
        Methyl tert-Butyl Ether                       < 1.00      < 1.00       < 1.00
        Methylene Chloride                            < 5.00      < 5.00       < 5.00




                                                 14
                                                                  10-P-0055


                                   MW-1B     MW-17       MW-4
 Compound                           (µg/L)    (µg/L)     (µg/L)
 4-Methyl-2-pentanone             < 10.0     < 10.0    < 10.0
 Styrene                          < 1.00     < 1.00    < 1.00
 1,1,2,2-Tetrachloroethane        < 1.00     < 1.00    < 1.00
 Tetrachloroethene                < 1.00     < 1.00    < 1.00
 Toluene                          < 1.00     < 1.00      9.35
 1,2,4-Trichlorobenzene           < 1.00     < 1.00    < 1.00
 1,2,3-Trichlorobenzene           < 1.00     < 1.00    < 1.00
 1,1,1-Trichloroethane            < 1.00     < 1.00    < 1.00
 1,1,2-Trichloroethane            < 1.00     < 1.00    < 1.00
 Trichloroethene                  < 1.00     < 1.00    < 1.00
 Trichlorofluoromethane           < 1.00     < 1.00    < 1.00
 Vinyl chloride                   < 1.00     < 1.00    < 1.00
 Xylenes, total                   < 3.00     < 3.00      23.1


Source: OIG sampling data.




                             15
                                                                                          10-P-0055


                                                                                      Appendix C

                  EPA Region 3 Response to Draft Report
                           and OIG Evaluation

                UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    REGION III
                                 1650 Arch Street
                         Philadelphia, Pennsylvania 19103-2029

                                                                                December 17, 2009

MEMORANDUM

SUBJECT:              Response to Draft Evaluation Report: Changes in Conditions at Wildcat
                      Landfill Superfund Site in Delaware Call for Increased EPA Oversight,
                      Project No. 2008-538, November 3, 2009

FROM:                 Shawn M. Garvin, Regional Administrator
                      Office of the Regional Administrator (3RA00)

TO:                   Carolyn Copper
                      Director for Program Evaluation
                      Hazardous Waste Issues
                      Office of Inspector General


This is Region III’s response to the Office of Inspector General (OIG) draft Evaluation Report:
Changes in Conditions at Wildcat Landfill Superfund Site in Delaware Call for Increased EPA
Oversight, dated November 3, 2009. Overall, Region III agrees with the findings of the report.
Outlined below are the Region’s responses to the proposed recommendations and a corrective
action plan for agreed upon actions, including planned completion dates.

OIG Recommendations for the Wildcat Landfill Superfund Site (Site)

2-1           Establish a sampling plan for the monitoring wells and surface waters that includes
              testing for total petroleum hydrocarbons.

              EPA Corrective Action

              Beginning with its September 2009 annual sampling event at the Site, EPA modified
              its sampling plan for the monitoring wells and surface waters at the Site to include
              testing for total petroleum hydrocarbons (TPH). A map showing the Site area, and
              highlighting the Sampling Locations is included as Attachment 1 to this memo.


                                                 16
                                                                                         10-P-0055


             Summary tables of the results of EPA Region III’s September 2009 sampling are
             included as Attachment 2. EPA will continue to monitor for TPH as long as is
             necessary to reliably establish the levels of TPH present onsite and evaluate whether
             petroleum hydrocarbons are present at levels that would adversely impact human
             health or the environment.

                 ¾ OIG Response 1: Region 3’s corrective action for Recommendation
                   2-1 meets the intent of the recommendation. This recommendation is
                   open with agreed to actions pending. In its 90-day response, the
                   Region should provide milestone dates for the future sampling events
                   where petroleum will be tested.

2-2          If petroleum is found on the Site, determine actions needed to address the
             contamination and amend existing site documents or generate new site documents, to
             ensure the Site is protective of human health and the environment for current and
             planned land uses.

             EPA Corrective Action

             Total Petroleum Hydrocarbons (or TPH) are a large family of several hundred
             chemical compounds that come from crude oil. TPH analysis is often used as a
             screening tool for suspected leaking undergrounds storage tanks. TPH analysis is
             further broken down into TPH-GRO (gasoline range organics) and TPH-DRO (diesel
             range organics). There are no federal regulations or action levels specific to TPH.
             Only 14 states regulate TPH. For the ones that do, the median action level is 1700
             ug/L1.

             For the purpose of projecting potential risks associated with exposure to petroleum
             products, because toxicity varies dramatically among compounds, identifying levels
             of the individual constituents provides far greater value than reporting the total
             concentration. In the Superfund Program, the most toxic elements of TPH --
             benzene, toluene, ethylbenzene and xylene -- are, in fact, measured during routine
             analytical services. Then, screening is performed on these compounds to determine
             if a potential risk exists. (Note that quantifying risks associated with TPH is not
             possible.) These steps were taken at the Site. Based on the most recent sampling
             data for the Site (September 2009), of these compounds only benzene was detected
             at a noteworthy concentration (26 ug/L) in one onsite well (MW-4). However, given
             the expected future use of the Site (recreational), the observed concentration of
             benzene in groundwater poses no significant risk under a typical exposure scenario.

             For the reasons outlined above, Region III continues to prefer individual compound
             analysis vs. TPH analysis for risk assessment purposes. At OIG’s suggestion the
             Region is now routinely conducting TPH analysis on samples from the Site. The
1
 Moran, Robert. “Health-Based TPH Closure Levels in RISC” Powerpoint Presentation. Indiana
Dept. of Environmental Management, October 2009. 



                                               17
                                                                                10-P-0055


results of EPA’s September 2009 sampling of monitoring wells and surface water
locations at the Site for TPH-GRO and TPH-DRO (See Attachments 1 and 2)
showed contaminants present in some samples at relatively low levels. The highest
detection (750 ug/L of TPH-DRO in MW-1B), was less than half the median state
action level of 1700 ug/L. A few noteworthy facts about the September 2009 TPH
sampling results are:

       1. MW-1B, the location of the highest detection of TPH-DRO, is a
       monitoring well located upgradient of the Site, indicating that that
       contamination is likely not related to the Site. Because it is below action
       levels, however, further investigation of that result is not warranted.

       2. The two surface water samples collected in locations with a visible oily
       sheen (SW-03 and SW-04) contained the lowest levels of TPH-DRO of any
       of the surface water samples collected on the Site as part of this sampling
       event (100 and 70 ug/L, respectively). SW-04 was the only surface water
       sampling location to have a detection of TPH-GRO, but that value (74 ug/L)
       was below the Contract-Required Quantitation Limit (CRQL), and therefore
       “J” qualified (the “J” qualifier means “Analyte present. Reported value may
       not be accurate or precise.”).

       3. TPH was detected in one of the blank samples leading all the TPH results
       to be “B” qualified, meaning the contaminant was “not detected at levels
       substantially above the level reported in laboratory or field blanks.” Blank
       contamination indicates the sample results may be biased high, but because
       the reported results are still below action levels these results are still usable.

   ¾ OIG Response 2: Region 3 generally agreed with Recommendation
     2-2. In response to the Region’s draft report comments, we modified
     Recommendation 2-2 to require action when and if petroleum levels
     exceed acceptable and appropriate levels. According to the Region’s
     draft report comments, its September 2009 sampling showed the
     highest level of TPH was 750 µg/L of TPH. The Region stated that this
     is less than half the median State action level of 1700 µg/L. However,
     the Region acknowledges in its comments that monitoring and
     evaluating individual components of TPH, such as VOCs, is how a risk
     determination is made. As a result, in addition to conducting TPH
     testing, the Region will also continue to test for the individual
     components of TPH. Region 3’s corrective action for Recommendation
     2-2 meets the intent of the recommendation. This recommendation is
     open with agreed to actions pending. In its 90-day response to OIG’s
     final report, the Region should describe its planned corrective actions
     for monitoring levels of TPH, assessing potential risk associated with
     levels of TPH that exceed acceptable and appropriate levels, and
     additional actions that should occur to address identified risks,
     particularly considering Site reuse plans.



                                   18
                                                                                   10-P-0055




2-3   Formally document oversight of the Site owners’ plans and agreements for use of the
      Site. This includes an evaluation and determination of the impact of construction or
      vegetation change on the remedy, and what modifications to the remedy and/or ROD
      will be needed to support unrestricted access to portions of the Site.

      EPA Corrective Action

      To date, the owner’s plans for the Site have been quite preliminary and physical
      realization of those plans has been estimated by the Site owner to be several years off
      in the future. As it awaits the owner’s actions, EPA will document discussions held
      with the Site owner regarding future plans and agreements for use of the Site in the
      Site file. Upon receipt of a formal design plan from the Site owner, EPA will
      complete an evaluation and determine the impact of construction or vegetation
      change on the remedy, and what modifications to the remedy and/or ROD will be
      needed to support any changes to access to portions of the Site that may be part of
      such a design.

         ¾ OIG Response 3: Region 3’s corrective action for Recommendation
           2-3 meets the intent of the recommendation. This recommendation is
           open with agreed to actions pending. In its 90-day response to OIG’s
           final report, the Region should provide milestone dates for discussions
           it will initiate and schedule with the Site owner(s) as part of its plan for
           conducting improved oversight of the Site reuse plans.

2-4   Change the sampling protocol to include dissolved (filtered) metals analysis.
      Require that the reporting limits for all analyses are at or below the DNREC standard
      to ensure that all contamination above the standard is detected. Assess the effect of
      the sampling results on the protectiveness determination of the Site.

      EPA Corrective Action

      Beginning with its September 2009 annual sampling event at the Site, EPA modified
      its sampling plan for the monitoring wells and surface waters at the Site to require
      that the reporting limits for all analyses are at or below the DNREC standard to
      ensure that all contamination above the standard is detected. EPA will carry this
      practice forward in all future sampling events at the Site. EPA will assess the effect
      of the sampling results on the protectiveness determination of the Site informally
      upon receipt of each set of validated sampling data, and formally no less frequently
      than once every five years as part of its Five Year Review. The next Five Year
      Review for the Site is scheduled to be completed in July 2012.

         ¾ OIG Response 4: Region 3’s corrective action for Recommendation
           2-4 meets the intent of the recommendation and milestones have been
           provided.




                                        19
                                                                                   10-P-0055


Attachment 1 – Sampling Location Map (labeled “Figure 3”)
Attachment 2 – Summary Tables of Analytical Results for Organic (labeled “Appendix C”) and
              Inorganic Compounds (labeled “Appendix D”) Detected in Groundwater and Surface
              Water Samples collected at Wildcat Landfill Superfund Site, September 2009.


OIG Note: The OIG did not include the attachments in this report.




                                             20
                                                                                               10-P-0055


                                                                                        Appendix D

                      Kent County Response to Draft Report
                              and OIG Evaluation


 Denis K. Mumford                                                                    Jeremy Sheppard
 Director - Acting                                                                   Assistant Director - Acting
 Community Services                                                                  Community Services
 (302) 744-2486                   Kent                        County                 Divisions of
 (302) 760-4757 Fax                                                                  Parks & Recreation
                                                                                     (302) 744-2494
                                                                                     (302) 760-4757 Fax

 Hillary Welliver                                                                    Carl J. Solberg
 Assistant Director             Department of Community Services                     Projects & Grants
 Community Services                                                                  Administrator
 Division of Library Services                                                        Parks Division
 (302) 698-6444                                                                      (302) 744-2490
 (302) 760-4757 Fax                                                                  (302) 760-4757




D. Denise Rice                                                              December 22, 2009
1200 Pennsylvania NW
MC2460T
Washington, D.C. 20460

Dear Ms. Rice,

       Please may this serve to provide the comments of the Kent County Parks Division regarding
the EPA OIG's 11/03/09 Draft Summary and Recommendations from OIG's 2009 site review of the
Wildcat Landfill. Thank you for the opportunity. This correspondence replaces our email of
November 30, 2009 in which this information was provided by addendum to the Adobe Acrobat file
provided by EPA for the County’s response.

         Also, permit us to thank EPA for its diligence to monitor the effectiveness of the
institutional controls at the Wildcat Landfill. Kent County is indebted to the rigorous attention your
office and Region III have given to this project. The County’s work and public service at Wildcat
are both supported and enhanced by EPA’s endeavors.

       As you know from earlier correspondence, (ref. 07/22/09 email to Patrick Milligan) Kent
County Parks has engaged in many aspects of conservation restoration, cultural resources
preservation, voluntary enhanced remediation of landfill areas where EPA found site controls to be
unnecessary, proactive restriction of access conditions left by EPA, public outreach and community
engagement, and considerable grant development. Considerable County revenues and in-kind
forces have been deployed to secure, stabilize, and otherwise improve the Wildcat Landfill and its
environs.




                                                 21
                                                                                             10-P-0055


        We are now developing a scope of work for design services by Whitman, Requardt &
Associates, P.E., to be procured under a Transportation Enhancement Program grant by DelDOT.
This professional services agreement will produce construction plans and other engineering
documents together with approvals (including those of Region III) for a bike/ped pathway utilizing
the existing geotec & stone road at the Wildcat Landfill. This PS&E scope of work will be based
on the earlier concept plan (ref 5/2009 WR&A preliminary conceptual alignment study previously
provided to Region III) and will be performed through to completion sometime in calendar 2010.

       Kent County is fulfilling its stated intentions, established with Region III at the time of
property acquisition in 2004, to enhance the institutional controls established by EPA, elevate the
environmental, conservation, cultural preservation, and passive recreational values and uses of the
entire property acquired from Shirley L. Hunn. We have maintained continuous, informal
correspondence with Region III's Remediation Section and occasionally with our colleagues at
DNREC SIRB prior to property acquisition and throughout the County's voluntary additional
remediation, and conservation and passive recreation planning which commenced in 2005.

        Kent County was inspired by numerous case studies provided by EPA, of beneficial re-use
of CERCLA and Brownfields properties for our St. Jones Greenway, and we intend that in the
fullness of time this site will provide a correspondingly noteworthy case study for EPA and others.
The next phase of site development will complete the conversion of Kent County’s additional
earthen cap restoration and the landfill cells remediated by EPA to a long-term meadow habitat
based on recommendations of the Delaware Wildlife Action Plan and further informed by the
County’s recognition that scrub shrub woodland conditions can not be supported by the shallow
landfill cap.

        We find in general, that OIG's summary correctly reflects the overall conditions and
planning context for the Wildcat Landfill.           It does, however, contain some inaccurate
representations of fact and process which these comments are intended to clarify. The conclusion
regarding enhancement of the correspondence between Kent County and Region III flows, at least
in part, from the impression that OIG has formed that Region III is “….at least 6 months behind
what the County had been doing at the Site and the County’s latest plans for controlling site
access.” (Ref. Draft – For Review and Comment Purposes Only, Page 2). We hope the net effect of
our response will serve to convince the OIG to amend this impression. We are, in any event, very
grateful to Region III for its assistance and will continue to apprize it of all our planning activities
as they continue.

       The following comments apply to OIG's Draft Summary Report of 11/03/09 and are
referenced by numerical notations where they have been inserted in the Word document as
applicable. We request that the final report reflect the information provided herein.

#1
Kent County prefers the following text:
"...limited pedestrian and bicycle access on a pre-existing stone roadway within the landfill."




                                                  22
                                                                                           10-P-0055


#2
Kent County prefers the following text:
"...and placed an earthen cap within non-remediated landfill in all areas adjacent to the intended
pathway, leaving distant and environmentally sensitive landfill areas undisturbed due to cost and
designation of these areas for non-access."

#3
Kent County disagrees with this characterization as we are developing a design plan to be submitted
to EPA for its review..... We prefer the following text:
"...allowing limited bicycle and pedestrian only access on the existing stone roadway and
conversion of the landfill cap to a conservation meadow management unit."

#4
Omitted statement of fact,
"....and further restricted unmanaged public access by removing four wooden bridges through the
property's forested buffer and installing an additional 500 LF of denial of access fencing where no
controls existed."

#5
It is not clear from this sentence that OIG is referring to the voluntary Conservation Easement
placed on the property by Kent County and the State of Delaware and recorded at the time of
property acquisition in January, 2004.

#6
Omitted information.
"Kent County's contract for professional design services is being developed with DelDOT at this
time and will include extensive correspondence requirements with EPA Region III regarding the
design plans for this pathway."

#7
Omitted statement of fact,
"In consultation with Region III since 2006, Kent County removed large quantities of surficial
domestic waste and trash, and placed an earthen cap over a 12-acre area including all un-remediated
landfill areas adjacent to and substantially beyond the existing landfill roadway where the bike and
pedestrian path would be."

#8
Clarification is needed.
"....remain on remote parts of the site which are environmentally sensitive and distant from the
proposed use of the roadway. These areas are designated for non-disturbance under the
conservation management objectives for the Site and access will not be enabled by the County's
bike path."




                                                 23
                                                                                          10-P-0055


#9
A factual error can be corrected as follows:
"Kent County has not yet engineered its access management proposal as this is a deliverable from
its design consultant, and this will be conveyed in draft to Region III for design guidance and
approval when it is developed."

#10
“Kent County agrees that documented correspondence between the County and Region III is a
requirement of any design plan for passive access to the Conservation Area and Landfill.”

#11
"Unrestricted" landfill access is not intended. Kent County has placed more restrictions on access
than those left by EPA's remedy - when footpaths and wooden bridges were removed by Kent
County and additional fencing was installed in 2006. The proposed bike path on an existing stone
roadway will continue to preclude vehicular access. Since the draft concept design plan by WR&A
(5/2009) was conveyed to Region III, Kent County has removed the one segment originally
envisioned to be placed on landfill cap as not feasible. Approvals of the final selected design plan
by Region III will be a deliverable in the actual engineering phase for 2010. Kent County prefers to
refer to bike/ped use of the stone roadway as "...managed access to portions of the Site."

        Please let me know if I can help you with this or if any additional clarification would be
helpful. With EPA’s assistance, the Wildcat Landfill will emerge as a persuasive case study of
local and federal coordination and community service.

Sincerely,



Carl J. Solberg
Kent County Parks Division Projects & Grants Administrator

CC:           Michael PetitDeMange, Kent County Administrator
              Keith Mumford, Kent County Community Services Director
              Jeremy Sheppard, Kent County Parks and Recreation Director
              Hillary Thornton, Region III Remediation Project Manager
              Patrick J. Milligan, EPA OIG Project Manager




                                                 24
                                                                                         10-P-0055



Changes in Conditions at Wildcat Landfill Superfund Site
in Delaware Call for Increased EPA Oversight

(OIG Note: Kent County’s 11 comments to our draft report are inserted in numerical order
in the following text.)


At a Glance
                   The Site’s owner has plans to use the Site as a greenway and to construct a
                   bike path on the landfill, which would open part of the Site to unrestricted
                   access.

                   (Comment 1. Replace “unrestricted” with "...limited pedestrian and bicycle
                   access on a pre-existing stone roadway within the landfill.")

                   ¾ OIG Response 1: Based on information available to OIG, the phrase
                     is accurate, transparent, and readable. No changes made.

                   The owner has cleaned up landfill debris where the bike path would be but
                   indicated it does not have the resources to clean up exposed debris on other
                   parts of the Site.

                   (Comment 2. Kent County prefers greater clarity as follows: “The Owner has
                   removed landfill debris and placed an earthen cap within non-remediated
                   landfill in all areas adjacent to the intended pathway, leaving distant and
                   environmentally sensitive landfill areas undisturbed due to cost and
                   designation of these areas for non-access.")

                   ¾ OIG Response 2: The OIG acknowledges the efforts Kent County
                     has made to further clean and improve the site. These efforts are
                     acknowledged in the Noteworthy Achievements section of this report.

                   In addition, a local small business owner who purchased an acre of the Site
                   has inquired about building a storage facility on that acre. Region 3 is aware
                   of the site-use plans but needs to increase its oversight to ensure unacceptable
                   short- and long-term risks to humans and the environment remain controlled.

Modifications to Site Remedy Are Necessary Before Land Can Be Used
for Recreation
                   Region 3 may not always be current with details of Kent County’s reuse
                   plans. Kent County’s future plans for the Site include converting the
                   property into a recreational greenway by constructing a bike and pedestrian
                   path through it and allowing unrestricted access to that portion of the Site.



                                              25
                                                                     10-P-0055


(Comment 3. Kent County disagrees with this characterization as we are
developing a design plan to be submitted to EPA for its review..... We prefer
the following text: "...and allowing limited bicycle- and pedestrian- only
access on the existing stone roadway and conversion of the landfill cap to a
conservation meadow management unit.")

¾ OIG Response 3: Based on information available to OIG, the
  phrase is accurate, transparent, and readable. No changes made.

However, Region 3’s Site remedy only supports reuse of the land as a
conservation area and greenway with access restricted to authorized
personnel. Kent County has already secured funding for aspects of the
project, entered into assistance agreements with the State of Delaware, and
has placed a conservation easement on the Site. Region 3 stated that it was
aware of the County’s plans through its continued oversight of Wildcat, but
the Region’s oversight has been informal and undocumented. Given the
advanced stage of the County’s plans, the Region needs to increase its
oversight through more frequent contact with the County and to provide
direction and guidance throughout the County’s project to ensure the Site
remains safe.

According to EPA documents, the Site contains natural barriers to human
access in the form of the St. Jones River, heavily treed borders, and a locked
gate at the entrance of the site. According to Region 3, these barriers, along
with the stabilization and capping of contaminated soils on site, removal of
drums, and the implementation of institutional controls in the form of deed
restrictions, make the Site protective for a conservation area and restricts
access of the Site to trained authorized personnel. Since Kent County
purchased the Site in January 2005, it has used it as a conservation area.

(Comment 4. Insert requested. “…and further restricted previously
unmanaged public access by removing four wooden bridges through the
property's forested buffer and installing an additional 500 LF of denial of
access fencing where no controls previously existed.")

¾ OIG Response 4: The suggested wording does not add
  necessary information to the report and the content is not germane
  to the issue. No changes made.

The purpose of the Site’s conservation easement is to assure that the property
will be retained forever in its natural scenic, open, historic, and forested
condition and to prevent any use of the property that will significantly impair
or interfere with its conservation value.

(Comment 5. It is not clear from this sentence that OIG is referring to the
voluntary Conservation Easement placed on the property by Kent County and



                           26
                                                                        10-P-0055


   the State of Delaware and recorded at the time of property acquisition in
   January, 2004.)

   ¾ OIG Response 5: This level of detail is not necessary in the
     report. No changes made.

   Between October 2005 and March 2008, Kent County entered into
   transportation enhancement agreements with the State of Delaware for design
   and review of the project (a recreational greenway with a bike and pedestrian
   path), conducting a feasibility study, and receiving technical assistance.
   These agreements, and the fact that the County has already secured funding
   for the feasibility phase of the project, indicate that the County is committed
   to making the recreational greenway a reality.

   (Comment 6. This would be the appropriate place to include: "Kent County's
   contract for professional design services is being developed with DelDOT at
   this time and will include extensive correspondence requirements with EPA
   Region III regarding the design plans for this pathway.")

¾ OIG Response 6: The point of this report passage is to substantiate
  that Kent County is firm in its plans. The additional comments are not
  needed to further substantiate this for purposes of our report. No
  changes made.

   The County and/or other partner organizations may also restore the manor
   house on the property for use as a museum.

   When Kent County purchased the property, there was debris and exposed
   landfill waste at the Site. Region 3 stated in the ROD that future direct
   contact with wastes is a concern should residential or commercial
   development occur upon the landfill. Since February 2007, Kent County has
   cleaned up the debris on the open areas of the Site where the bike and
   pedestrian path would be.

   (Comment 7. Insert requested.
   "In consultation with Region III since 2005, Kent County removed large
   quantities of surficial domestic waste and trash, and placed an earthen cap
   over a 12-acre area including all un-remediated landfill areas adjacent to and
   substantially beyond the existing landfill roadway where the bike and
   pedestrian path would be.")

   ¾ OIG Response 7: The OIG acknowledges the efforts Kent County
     has made to further clean and improve the site. These efforts are
     acknowledged in the Noteworthy Achievements section of this
     report.




                              27
                                                                       10-P-0055




 According to Region 3’s most recent Five-Year review, this level of clean-up
is sufficient for the current use of the land and may be sufficient for the future
recreational use if access to the Site is limited to the path only. However,
exposed landfill debris remains on parts of the Site, which Kent County states
it does not have the resources to remove.

(Comment 8. Insert requested. “However, exposed landfill debris remains on
remote parts of the site which are environmentally sensitive and distant from
the proposed use of the roadway. These areas are designated for non-
disturbance under the conservation management objectives for the Site and
access will not be enabled by the County's bike path.")

¾ OIG Response 8: In Kent County’s e-mail of October 28, 2008,
  it stated the following, “The minor examples of incidental trash
  exposed by throw-down which they observed, are in the margins of
  the uncapped landfill that our resources can not reach.” The
  language the OIG uses in the report is an accurate portrayal of
  what the OIG observed and the County’s response to the condition
  at the site.

The debris could pose a hazard to Site users if access to the entire Site is
unrestricted. In response to OIG’s concerns, the RPM requested an update
from Kent County on how it was progressing with cleaning up the debris and
addressing other issues about site reuse plans. The update provided by Kent
County showed that the Region was at least 6 months behind what the
County had been doing at the Site and the County’s latest plans for
controlling site access.

(Comment 9. Insert requested. "Kent County has not yet engineered its
access management proposal as this is a deliverable from its design
consultant, and this will be conveyed in draft to Region III for design
guidance and approval when it is developed. Also, the May 2009 Conceptual
Plan for use of the existing roadway as a bike path was previously transmitted
to Region III.”)

¾ OIG Response 9: The OIG understands that the County’s plans
  are still being formulated. However, this portion of the report is
  referring to the situation as it existed during the early part of the
  OIG’s evaluation, before May 2009. Region 3 stated that it was
  aware of the County’s plans through its continued oversight of
  Wildcat, but the Region’s oversight has been informal and
  undocumented.

EPA needs to conduct routine and documented oversight of the County's
plans and activities to determine necessary modifications to the plans, prevent



                           28
                                                                                  10-P-0055


            unsafe exposures, and ensure safe uses of the Site if unrestricted access is
            permitted or likely to occur.

            (Comment 10. Insert requested. “Kent County agrees that documented
            correspondence between the County and Region III is a requirement of any
            design plan for passive access to the Conservation Area and Landfill.”)

            ¾ OIG Response 10: The OIG agrees and will revise the report
              accordingly.

Recommendation
            Formally document oversight of the Site owners’ plans and agreements for
            use of the Site. This includes an evaluation and determination of the impact
            of construction or vegetation change on the remedy, and what modifications
            to the remedy and/or ROD will be needed to support unrestricted access to
            portions of the Site.

            (Comment 11. "Unrestricted" landfill access is not intended. Kent County
            has placed more restrictions on access than those left by EPA's remedy -
            when footpaths and wooden bridges were removed by Kent County and
            additional fencing was installed in 2006. The proposed bike path on an
            existing stone roadway will continue to preclude vehicular access. Since the
            draft concept design plan by WR&A (5/2009) was conveyed to Region III,
            Kent County has removed the one segment originally envisioned to be placed
            on landfill cap as not feasible. Approvals of the final selected design plan by
            Region III will be a deliverable in the actual engineering phase for 2010.
            Kent County prefers to refer to bike/ped use of the stone roadway as
            "...managed access to portions of the Site.")

            ¾ OIG Response 11: The OIG report modifies the term unrestricted
              by using it in conjunction with the phrase, “on portions of the Site.”
              The OIG understands that the County and EPA Region 3 plan
              additional restrictions to keep the public on the intended path.
              However, until the access management plans are complete and
              available for evaluation, it cannot be determined if the controls are
              a sufficient deterrent to accessing parts of the Site that are not
              intended for public use.




                                       29
                                                                                      10-P-0055


                                                                                  Appendix E

                                         Distribution

Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Regional Administrator, Region 3
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Director, Office of Superfund Remediation and Technology Innovation, Office of Solid Waste
       and Emergency Response
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Region 3
Acting Inspector General




                                              30
